United States v. Khweis, 971 F.3d 453 (2020)

971 F.3d 453
United States Court of Appeals, Fourth Circuit.
UNITED STATES of America, Plaintiff - Appellee,
v.
Mohamad Jamal KHWEIS, Defendant - Appellant.
No. 17-4696
|
Argued: May 29, 2020
|
Decided: August 11, 2020

Synopsis
Background: After defendant's motion to suppress was denied
by the United States District Court for the Eastern District of
Virginia, Liam O'Grady, Senior District Judge, 2017 WL
2385355, defendant was convicted of conspiring to provide,
and providing, material support or resources to a designated
foreign terrorist organization, i.e., the Islamic State of Iraq
and the Levant (ISIL), and possessing, using, and carrying
firearms during and in relation to a crime of violence.
Defendant appealed.

West Headnotes (13)

[1]

On appeal from the denial of a motion to
suppress, the Court of Appeals views the evidence
in the light most favorable to the Government.

[2]

Criminal Law Review De Novo
Criminal Law Evidence wrongfully obtained
When reviewing the denial of a motion to
suppress, the Court of Appeals reviews the
District Court's factual findings for clear error and
the District Court's legal determinations de novo.

[3]

Criminal Law Purpose
Because the pressure and isolation inherent in
custodial interrogation could overcome the
resilience of a suspect otherwise not inclined to
incriminate himself,
Miranda warnings are
intended to insure that the right against
compulsory self-incrimination is protected. U.S.
Const. Amend. 5.

Holdings: The Court of Appeals, Rushing, Circuit Judge, held
that:

[1] assuming that FBI agents, in interviewing defendant in
detention center in Iraq, used a deliberate two-step strategy
with respect to
Miranda warnings, agents undertook
sufficient curative measures to ensure that defendant's
post-warning confession was voluntary, but

Criminal Law Reception of evidence

[4]

Criminal Law Form and sufficiency
Under Miranda, prior to custodial questioning,
a suspect must be warned that he has the right to
remain silent, that anything he says can be used
against him in a court of law, that he has the right
to the presence of an attorney, and that if he
cannot afford an attorney one will be appointed
for him prior to any questioning if he so desires.
U.S. Const. Amends. 5, 6.

[2] the crime of conspiracy to provide material support to a
designated foreign terrorist organization does not qualify as
predicate crime of violence, for purposes of possessing, using,
and carrying firearms during and in relation to a crime of
violence.
Affirmed in part, vacated in part, and remanded.

Floyd, Circuit Judge, filed an opinion concurring in part and
dissenting opinion.

[5]

Criminal Law Necessity in general
Criminal Law Necessity

Procedural Posture(s): Appellate Review; Pre-Trial Hearing
Motion.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Khweis, 971 F.3d 453 (2020)

In the typical midstream
Miranda warnings
case, the admissibility of post-warning statements
should continue to be governed by voluntariness
principles, but if a deliberate two-step strategy has
been used, post-warning statements that are
related to the substance of pre-warning statements
must be excluded unless curative measures are
taken before the post-warning statement is made;
thus, even when a deliberate two-step strategy has
been used, curative measures can render
post-warning statements admissible if those
measures are designed to ensure that a reasonable
person in the suspect's situation would understand
the import and effect of the Miranda warnings
and of the Miranda waiver.

The admissibility at trial of any custodial
confession is conditioned on having warned a
suspect of his rights, and the failure to give the
prescribed
Miranda warnings and obtain a
waiver of rights before custodial questioning
generally requires exclusion of any statements
obtained.

[6]

Criminal Law Two-step interrogation
technique; warnings
Criminal Law Voluntariness
While midstream
Miranda warnings cannot
render pre-warning statements admissible, they
dispel the presumption of involuntariness for
post-warning statements.
[9]

[7]

Criminal Law Two-step interrogation
technique; warnings
Criminal Law Voluntariness
Absent deliberately coercive or improper tactics
in obtaining the initial statement without
Miranda warnings, the mere fact that a suspect
has made an unwarned admission does not
warrant a presumption of compulsion; rather, a
subsequent administration of
Miranda
warnings to a suspect who has given a voluntary
but unwarned statement ordinarily should suffice
to remove the conditions that precluded admission
of the earlier statement.

[8]

Criminal Law Two-step interrogation
technique; warnings

Criminal Law Delay between initial statement
and resumption of interrogation
A substantial break in time and circumstances
between the pre-warning statement and the
Miranda warnings may suffice to make the
post-warning statement voluntary in most
circumstances, because the break allows the
suspect to distinguish the two contexts and
appreciate that the interrogation has taken a new
turn.

[10]

Criminal Law Two-step interrogation
technique; warnings
Assuming that FBI agents, in interviewing suspect
in detention center in Iraq, used a deliberate
two-step strategy with respect to
Miranda
warnings, agents undertook sufficient curative
measures to ensure that suspect's post-warning
confession was voluntary, where post-warning
interviews began ten days after unwarned
intelligence interviews, warned and unwarned
interviews were held in different interview rooms,
with entirely different American and Kurdish
personnel, for the warned interviews FBI agents
did not obtain any information from unwarned
intelligence interviews, and agents told suspect,
for warned interviews, that they did not know
what, if anything, he had said in unwarned
intelligence interviews.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

United States v. Khweis, 971 F.3d 453 (2020)

[11]

Criminal Law Two-step interrogation
technique; warnings

Attorneys and Law Firms

For suspect's confession, during warned
interrogations that began ten days after
intelligence interviews without
Miranda
warnings, to be voluntary, FBI was not required
to inform suspect about its plans during the
ten-day break, nor to inform him of the
inadmissibility of his prior unwarned statements.

ARGUED: John Mann Beal, Chicago, Illinois, for Appellant.
Daniel Taylor Young, OFFICE OF THE UNITED STATES
ATTORNEY, Alexandria, Virginia, for Appellee. ON BRIEF:
G. Zachary Terwilliger, United States Attorney, Raj Parekh,
Assistant United States Attorney, OFFICE OF THE UNITED
STATES ATTORNEY, Alexandria, Virginia, for Appellee.
Before DIAZ, FLOYD, and RUSHING, Circuit Judges.

Opinion
[12]

Criminal Law Promises; Hope of Benefit
FBI agent's truthful statement, during intelligence
interviews before
Miranda warnings were
given to suspect detained in Iraq, that agent could
not promise extradition to United States, and
agent's encouragement to suspect to be truthful,
were proper, when determining whether suspect's
post-warning confession was voluntary, even if
the only thing that suspect cared about was
avoiding the Kurdish and Iraqi court systems in
favor of returning to the United States.

[13]

Weapons Crimes of violence
The crime of conspiracy to provide material
support to a designated foreign terrorist
organization does not have as an element the use,
attempted use, or threatened use of physical force
against the person or property of another, and
thus, under the force clause defining crime of
violence, the crime does not qualify as a predicate
for possessing, using, and carrying firearms
during and in relation to a crime of violence.
18 U.S.C.A. §§ 924(c)(3)(A), 2339B.

West Codenotes
Recognized as Unconstitutional
18 U.S.C.A. § 924(c)(3)(B)
*455 Appeal from the United States District Court for the
Eastern District of Virginia, at Alexandria. Liam O'Grady,
District Judge. (1:16-cr-00143-LO-1)

Affirmed in part, vacated in part, and remanded by published
opinion. Judge Rushing wrote the majority opinion, in which
Judge Diaz joined. Judge Floyd wrote a dissenting opinion.
RUSHING, Circuit Judge:

In December 2015, Mohamad Jamal Khweis, a
twenty-six-year-old American citizen, sold a number of his
possessions and, through a series of one-way tickets, traveled
to territory in Syria and Iraq controlled by a foreign terrorist
organization known as the Islamic State of Iraq and the Levant
(ISIL).1 Khweis spent the next several months training with
and supporting ISIL fighters and leaders. On March 14, 2016,
Khweis was captured by Kurdish Peshmerga fighters and
transported to a Kurdish Counter-Terrorism Directorate
(CTD) detention center in Erbil, Iraq.

At the detention center, the Federal Bureau of Investigation
(FBI) Assistant Legal Attaché for Iraq, Michael Connelly,
interviewed Khweis to gather intelligence about ISIL without
providing him
Miranda warnings. See
Miranda v.
Arizona, 384 U.S. 436, 467–473, 86 S.Ct. 1602, 16 L.Ed.2d
694 (1966). Ten days after Connelly's interviews concluded,
a different team of FBI agents interviewed Khweis for
purposes of a potential United States criminal prosecution.
This second team advised Khweis of his Miranda rights
before each interview. Khweis waived his rights and made
inculpatory statements that the Government later introduced at
his trial for conspiring to provide material support or resources
to ISIL in violation of
18 U.S.C. § 2339B, providing
material support or resources to ISIL in violation of
18
U.S.C. § 2339B, and possessing, using, and carrying firearms
during and in relation to a crime of violence in violation of
18 U.S.C. § 924(c)(1)(A). The jury convicted Khweis on all

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

United States v. Khweis, 971 F.3d 453 (2020)

counts, and he was sentenced to 240 months’ imprisonment.

Khweis now appeals the admission of his statements to the
second team of FBI agents, contending that the midstream
Miranda warnings he received were ineffective. We affirm
because, even assuming the FBI deliberately used a two-step
interview strategy, the agents undertook sufficient curative
measures to ensure that a reasonable person in Khweis's
position would understand the import and effect of the
Miranda warnings and waiver. However, we must vacate
Khweis's Section 924(c) conviction in light of United
States v. Davis, ––– U.S. ––––, 139 S. Ct. 2319, 204 L.Ed.2d
757 (2019), because Khweis's conspiracy offense is not a
predicate crime of violence. Therefore, we affirm in part,
vacate in part, and remand for resentencing.

I.

reasonable doubt’ do not apply.” J.A. 882. In conjunction with
the fact sheet, Jasonides provided Khweis with a list of
lawyers who practice in the Kurdistan region of Iraq.
Jasonides also presented Khweis with a Privacy Act waiver,
which authorized the State Department to communicate with
Khweis's identified designees. Khweis signed the waiver,
identifying only his parents.

The same day, Connelly visited Khweis. Connelly testified
that the presiding Kurdish general initially denied the FBI's
request to access Khweis but ultimately permitted Connelly to
interview him for one hour and to copy his electronic devices.
The interview occurred in an office in the CTD detention
facility and was attended by two State Department officials
and a Kurdish CTD official. Khweis was not handcuffed
during the interview. Connelly testified that he decided to
interview Khweis for intelligence purposes without providing
Miranda warnings because his access to Khweis was
controlled by Kurdish authorities and might be limited.
Connelly believed the risk to any future United States criminal
prosecution was worth the valuable intelligence that Khweis
could potentially provide about ISIL facilitation networks,
organizational structure, and fighters.

A.

[1]Before trial, Khweis moved to suppress his Mirandized
statements. After a multiday hearing, the district court denied
the motion, therefore we view the evidence in the light most
favorable to the Government. See
United States v.
Abdallah, 911 F.3d 201, 209 (4th Cir. 2018). We accept the
district court's factual findings, which Khweis does not contest
on appeal. Br. of Appellant 21.

Evidence at the suppression hearing showed that Kurdish
forces held Khweis in custody for violations of Kurdish and
Iraqi law, namely joining a terrorist organization and crossing
the border without proper documentation. Khweis's detention
was authorized by the local court, and he was offered counsel
to represent him in the local court system, which he declined.

On March 15, 2016, the day after Khweis's capture, United
States Department of State Consular Officer Mark Jasonides
visited him. Jasonides inquired about Khweis's well-being and
provided him with a fact sheet about the Iraqi legal system.
The fact sheet advised, among other things, that, “[i]n Iraq, the
usual expectations of presumption of innocence, the right to
remain silent[,] and proof of criminal activity ‘beyond a

After this initial interview, Connelly requested permission
from the Kurdish authorities to continue interviewing Khweis,
which they granted. Connelly interviewed Khweis a second
time on March 15 and then on March 17, 18, 19, 20, 23, 26,
and 31 and April 7 and 10. Connelly testified that the breaks
in the interview schedule occurred when Kurdish officials
periodically prevented him from accessing Khweis. Each of
the eleven interviews lasted no longer than half a day. The
interviews were conducted at the CTD detention center and
were attended by a Kurdish CTD official, a State Department
official, and occasionally Department of Defense officials.
Khweis was not shackled and was provided snacks, cigarettes,
and breaks. The Government did not advise Khweis of his
Miranda rights before any of the interviews.

During the interviews, Khweis described his efforts to join
ISIL, identified other ISIL members, and explained his
understanding of ISIL operations in the region. Khweis
frequently admitted that he had not been fully truthful during
prior sessions, resulting in multiple resets of the interview
process. In these instances, Connelly would “go all the way
back to the beginning and start walking through ... every single
detail of the facilitation network all over again” in order to
obtain accurate intelligence. J.A. 487, 492, 2262. Khweis
repeatedly expressed a desire to return to the United States for
prosecution rather than remain in the Kurdish or Iraqi justice
system, and he asked Connelly whether he would be charged

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

United States v. Khweis, 971 F.3d 453 (2020)

and extradited. Connelly advised Khweis that he could not
make any promises because the Department of Justice and
United States courts made those decisions. Connelly also
advised Khweis that his story had to be consistently truthful in
order for investigators to determine whether a crime had been
committed.

While the interviews were ongoing, Connelly discussed
Khweis's cooperation with other intelligence agents. On March
22, Connelly described the interviews as “a textbook case of
getting a guy from a complete lie to a confession ... he will not
let me down[.]” J.A. 892. Connelly testified that a confession
during an intelligence interview is “a good step” because it
signals “more full disclosure,” but it was not “the goal,” as
evidenced by the fact that Connelly continued to interview
Khweis after this date. J.A. 518. In an email on March 26,
Connelly wrote that “[t]his was time very well spent because
the extensive time we took getting him comfortable with
telling the truth will make it far easier for subsequent
interviews here and in the US.” J.A. 913. On April 7, Connelly
reported that “[Khweis] would not stop talking in an attempt
to fill in gaps he previously created. He is going to be very
easy to deal with from a clean team perspective.” J.A. 885.
Finally, on April 8, Connelly commented to other intelligence
agents via email that “[Khweis] is lined up perfectly for the
clean team.” J.A. 894. Connelly's interviews ended on April
10, and neither he nor any other government officials involved
in those interviews contacted Khweis after that date.

Ten days later, on April 20, a second team of interviewers met
with Khweis for the purpose of a potential United States
prosecution. This team consisted of FBI Special Agents
Victoria Martinez and Brian Czekala, along with a Kurdish
official who had not attended the previous interviews.
Martinez and Czekala were walled off from the intelligence
team: they did not read Connelly's interview memoranda, did
not receive his electronic communications about the
interviews, did not speak to him about the substance of
Khweis's previous interviews, and did not ask Khweis about
what he told Connelly. They were informed only that Khweis
had previously been interviewed for intelligence purposes.
This interview was conducted in a different conference room
in the CTD detention center and did not involve any of the
same American or Kurdish officials. The agents advised
Khweis of his Miranda rights orally and in writing before
the interview. The advice-of-rights form, which the agents
reviewed with Khweis, also stated in part:
You have the right to remain silent. We
understand that you may have already spoken
to others. We do not know what, if anything,
they said to you, or you said to them.

Likewise, we are not interested in any of the
statements you may have made to them
previously. We are starting anew. You do not
need to speak with us today just because you
have spoken with others in the past.
J.A. 886. In addition to apprising Khweis of his right
to counsel, the agents advised him that his family
had in fact retained counsel for him in the United
States.2 Khweis waived his Miranda rights orally
and in writing before the interview; he also
consented to searches of his electronic equipment.

Martinez and Czekala interviewed Khweis again on
April 21 and 23. Before each interview, they advised
Khweis of his Miranda rights, reminded him that
his family had retained counsel on his behalf, and
reiterated that he was under no obligation to speak to
them simply because he had made statements in the
past. Khweis again waived his rights orally and in
writing before each interview.

The Government filed a sealed complaint against
Khweis on May 11, 2016, and he was transferred
from Kurdish to United States custody on June 8.
During his flight to the United States, Khweis
initiated conversation with Martinez and another FBI
agent on board. The agents apprised Khweis of his
Miranda rights, which he waived. During the
conversation, Khweis made a number of inculpatory
statements. At some point, Khweis invoked his right
to remain silent and the agents ceased questioning.
Later during the flight, Khweis reinitiated
conversation with the agents.

B.
The district court denied Khweis's motion to
suppress the statements he made to Martinez and
Czekala.3 The court reasoned that, although Khweis
was subject to two phases of interviews—one before
and one after he was informed of his
Miranda
rights—the evidence established that “the FBI did
not engage in an intentional scheme to undermine
the effectiveness of subsequent
Miranda
warnings.” J.A. 2285. In particular, the district court
found that the decision not to inform Khweis of his
rights before the first interview “was driven by

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

United States v. Khweis, 971 F.3d 453 (2020)

intelligence-gathering needs,” “Connelly had good
reason to continue interviewing [Khweis] even after
obtaining substantial intelligence,” and “Connelly's
later braggadocio about the success of the interviews
did not overturn the original justification or affect
the later Mirandized interviews.” J.A. 2285. The
court further noted that the “absence of any shared
personnel, information, or impressions of the
interviewee between the first and second interview
teams substantially undermines the claim of a
coordinated effort to circumvent Miranda.” J.A.
2286. Because the court found that the agents did not
deliberately undermine
Miranda, it concluded
that “the ‘subsequent administration of Miranda
warnings ... suffice[d] to remove the conditions that
precluded admission of the earlier statement.’ ” J.A.
2287 (quoting Oregon v. Elstad, 470 U.S. 298,
314, 105 S.Ct. 1285, 84 L.Ed.2d 222 (1985)).

Khweis went to trial in May 2017. The jury
convicted him on all three counts: conspiring to
provide material support or resources to ISIL in
violation of
18 U.S.C. § 2339B (Count One),
providing material support or resources to ISIL in
violation of 18 U.S.C. § 2339B (Count Two), and
possessing, using, and carrying firearms during and
in relation to a crime of violence in violation of
18 U.S.C. § 924(c)(1)(A) (Count Three). The
district court imposed concurrent sentences of 180
months’ imprisonment on Counts One and Two and
a consecutive sentence of 60 months’ imprisonment
on Count Three, to be followed by ten years of
supervised release.

II.
[2]When reviewing the denial of a motion to
suppress, we “review the factual findings ... for clear
error and the district court's legal determinations de
novo.”
Abdallah, 911 F.3d at 209 (quoting
United States v. Hashime, 734 F.3d 278, 282 (4th
Cir. 2013)).

[3] [4] [5]The Self–Incrimination Clause of the Fifth
Amendment guarantees that “[n]o person ... shall be
compelled in any criminal case to be a witness
against himself.” U.S. Const. amend. V.

“Recognizing that the pressure and isolation inherent
in custodial interrogation could overcome the
resilience of a suspect otherwise not inclined to
incriminate himself,” United States v. Mashburn,
406 F.3d 303, 306 (4th Cir. 2005), the Supreme
Court in Miranda instituted “measures to insure
that the right against compulsory self-incrimination
is protected,” New York v. Quarles, 467 U.S. 649,
654, 104 S.Ct. 2626, 81 L.Ed.2d 550 (1984)
(brackets omitted) (quoting Michigan v. Tucker,
417 U.S. 433, 444, 94 S.Ct. 2357, 41 L.Ed.2d 182
(1974)); see Miranda, 384 U.S. at 478–479, 86
S.Ct. 1602. Pursuant to
Miranda, prior to
custodial questioning, a suspect must be warned
“that he has the right to remain silent, that anything
he says can be used against him in a court of law,
that he has the right to the presence of an attorney,
and that if he cannot afford an attorney one will be
appointed for him prior to any questioning if he so
desires.”
Miranda, 384 U.S. at 479, 86 S.Ct.
1602. The Supreme Court has “conditioned the
admissibility at trial of any custodial confession on
warning a suspect of his rights: failure to give the
prescribed warnings and obtain a waiver of rights
before custodial questioning generally requires
exclusion of any statements obtained.” Missouri
v. Seibert, 542 U.S. 600, 608, 124 S.Ct. 2601, 159
L.Ed.2d 643 (2004) (plurality opinion).

[6] [7] But what of
Miranda warnings
administered after questioning has begun?
Midstream warnings obviously cannot render
prewarning statements admissible, but can they
dispel the presumption of involuntariness for
postwarning statements? The Supreme Court in
Oregon v. Elstad concluded that they could. See
470 U.S. 298, 105 S.Ct. 1285, 84 L.Ed.2d 222
(1985). As the Court explained, “absent deliberately
coercive or improper tactics in obtaining the initial
statement, the mere fact that a suspect has made an
unwarned admission does not warrant a presumption
of compulsion.”
Id. at 314, 105 S.Ct. 1285.
Rather, “[a] subsequent administration of
Miranda warnings to a suspect who has given a
voluntary but unwarned statement ordinarily should
suffice to remove the conditions that precluded
admission of the earlier statement.” Id.

In Elstad, officers went to Michael Elstad's home
with a warrant to arrest him for burglary. Id. at
300, 105 S.Ct. 1285. While there, an officer
questioned Elstad about the burglary without first

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

6

United States v. Khweis, 971 F.3d 453 (2020)

administering
Miranda warnings, and Elstad
admitted that he was present when the burglary
occurred.
Id. at 300–301, 105 S.Ct. 1285. The
officers then transported Elstad to police
headquarters. Id. at 301, 105 S.Ct. 1285. About
an hour later, the same officers joined Elstad,
advised him of his
Miranda rights, and
questioned him about the burglary.
Id. After
waiving his rights, Elstad made additional
inculpatory statements.
Id. The Supreme Court
held the postwarning confession admissible,
reasoning that “[t]hough
Miranda requires that
the unwarned admission must be suppressed, the
admissibility of any subsequent statement should
turn in these circumstances solely on whether it is
knowingly and voluntarily made.” Id. at 309, 105
S.Ct. 1285. The Court rejected the notion that a
“subtle form of lingering compulsion” tainted the
postwarning statement due to “the psychological
impact of the suspect's conviction that he has let the
cat out of the bag and, in so doing, has sealed his
own fate.”
Id. at 311, 105 S.Ct. 1285. As the
Court explained, even in cases where a prior
statement was actually coerced, the Court has
assumed that the coercive effect could dissipate with
the passage of time, a change in place, or a change in
identify of the interrogators. Id. at 310, 105 S.Ct.
1285; see also
id. at 311–312, 105 S.Ct. 1285.
Because Elstad's initial statement was voluntary and
the subsequent reading of Elstad's rights was
“undeniably complete,” the Court held that Elstad's
waiver was knowing and voluntary and his
subsequent confession was therefore admissible.
Id. at 314–315, 105 S.Ct. 1285.

The Supreme Court returned to the question of
midstream warnings in
Missouri v. Seibert to
address the admissibility of statements obtained
through a two-step police protocol: “first,
intentionally withholding Miranda warnings from
a suspect, questioning the suspect until securing a
confession; then obtaining a waiver of Miranda
rights from the suspect and covering the same
material using leading questions.” Mashburn, 406
F.3d at 307. There, police awakened Patrice Seibert
in the middle of the night and took her to the police
station, where they deliberately chose not to
administer
Miranda warnings.
Seibert, 542
U.S. at 604, 124 S.Ct. 2601 (plurality opinion). An
officer questioned Seibert for 30 to 40 minutes until
she admitted her culpability in the alleged murder.
Id. at 604–605, 124 S.Ct. 2601. She was then
allowed a 20-minute break, after which the same

officer “turned on a tape recorder, gave Seibert the
Miranda warnings, and obtained a signed waiver
of rights from her.” Id. at 605, 124 S.Ct. 2601.
The officer then resumed questioning Seibert about
the murder, “confront[ing] her with her prewarning
statements” and securing her repeated admissions to
those statements, cross-examination style. Id.

The Supreme Court held that Seibert's postwarning
statements should have been suppressed. The
plurality reasoned that, in these circumstances, “the
warnings could [not] function ‘effectively’ as
Miranda requires.” Id. at 611–612, 124 S.Ct.
2601. The plurality distinguished the circumstances
of Elstad and identified “a series of relevant facts
that bear on whether Miranda warnings delivered
midstream could be effective enough to accomplish
their object: the completeness and detail of the
questions and answers in the first round of
interrogation, the overlapping content of the two
statements, the timing and setting of the first and the
second, the continuity of police personnel, and the
degree to which the interrogator's questions treated
the second round as continuous with the first.” Id.
at 615, 124 S.Ct. 2601.

[8] [9]Justice Kennedy concurred in the judgment on
narrower grounds, providing the fifth vote for
suppression. We have previously determined that his
opinion “therefore represents the holding of the
Seibert Court.” Mashburn, 406 F.3d at 309. In
his controlling opinion, Justice Kennedy rejected the
plurality's use of a multifactor analysis to determine,
for every two-stage interrogation, whether the
Miranda warnings could have been effective.
Seibert, 542 U.S. at 621–622, 124 S.Ct. 2601
(Kennedy, J., concurring in the judgment). Instead,
Justice Kennedy applied “a narrower test applicable
only in the infrequent case ... in which the two-step
interrogation technique was used in a calculated way
to undermine the
Miranda warning.”
Id. at
622, 124 S.Ct. 2601. In the typical midstream
warning case, he explained, the admissibility of
postwarning statements “should continue to be
governed by the [voluntariness] principles of
Elstad.”
Id. But if a “deliberate two-step
strategy has been used, postwarning statements that
are related to the substance of prewarning statements
must be excluded unless curative measures are taken
before the postwarning statement is made.”
Id.
Thus, even when a deliberate two-step strategy has
been used, curative measures can render postwarning

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

7

United States v. Khweis, 971 F.3d 453 (2020)

statements admissible if those measures are
“designed to ensure that a reasonable person in the
suspect's situation would understand the import and
effect of the
Miranda warning and of the
Miranda waiver.”
Id. Justice Kennedy
reasoned that “a substantial break in time and
circumstances between the prewarning statement and
the
Miranda warning may suffice in most
circumstances,” because it allows the suspect “to
distinguish the two contexts and appreciate that the
interrogation has taken a new turn.”
Id. (citing
Westover v. United States, decided with Miranda,
384 U.S. at 494–497, 86 S.Ct. 1602). Because no
curative steps were taken in Seibert's case, Justice
Kennedy concluded that her postwarning statements
were inadmissible. Id.

[10]The district court here determined that the
Government did not employ a deliberate two-step
strategy designed to undermine
Miranda, J.A.
2287–2288, a conclusion Khweis disputes on appeal.
We need not address this question, however,
because, even assuming the FBI used a deliberate
two-step strategy, we conclude that they instituted
sufficient curative measures “designed to ensure that
a reasonable person in [Khweis's] situation would
understand the import and effect of the Miranda
warning and of the Miranda waiver.” Seibert,
542 U.S. at 622, 124 S.Ct. 2601 (Kennedy, J.,
concurring in the judgment).

The Mirandized interviews here began ten days after
the unwarned interviews had ended—a period longer
than any break during the series of unwarned
interviews. Although conducted at the CTD
detention center, the warned interviews were held in
a different room than the unwarned interviews.
Entirely different American and Kurdish personnel
attended the Mirandized interviews. Agents Martinez
and Czekala, who conducted those interviews, did
not receive any information about Connelly's
intelligence interviews, nor did they ask Khweis
about what he told Connelly. The agents therefore
could not treat the second set of interviews as
continuous with the first, ask leading questions, or
cross-examine Khweis with his previous statements.
Cf.
Seibert, 542 U.S. at 616, 124 S.Ct. 2601
(plurality opinion) (“The impression that the further
questioning was a mere continuation of the earlier
questions and responses was fostered by references
back to the confession already given.”);
id. at
621, 124 S.Ct. 2601 (Kennedy, J., concurring in the

judgment) (noting that the postwarning interview
“resembled a cross-examination” and that reference
to the prewarning statement gave the false
impression “that the mere repetition of the earlier
statement was not independently incriminating”).

Importantly, the agents told Khweis they did not
know what, if anything, he had said in prior
interviews, a disclosure that would indicate a reset to
a reasonable person in Khweis's position. In addition
to informing Khweis of his right to remain silent,
they also advised him that he did “not need to speak
with [them] today just because [he] h[ad] spoken
with others in the past.” J.A. 886. The
advice-of-rights form elaborated that the agents were
“not interested in any of the statements [he] may
have made to [others] previously.” J.A. 886. It
explicitly stated: “We are starting anew.” J.A. 886.
And in addition to apprising Khweis of his right to
counsel, the agents informed him that his family had
retained counsel for him in the United States.

These circumstances were sufficient to allow a
reasonable person in Khweis's position to distinguish
between the unwarned interviews with Connelly and
the later warned interviews with Martinez and
Czekala and to “appreciate that the interrogation
ha[d] taken a new turn.” Seibert, 542 U.S. at 622,
124 S.Ct. 2601 (Kennedy, J., concurring in the
judgment). The break in time and place, total
separation of personnel, and thorough explanation to
Khweis about the distinction between the
Mirandized interviews and anything that had come
before sufficed to communicate to him “the import
and effect of the
Miranda warning and of the
Miranda waiver.” Id. We find this especially
true in light of the additional information the agents
disclosed. For example, “the import and effect” of
the right to silence was preserved and communicated
to Khweis by disclosing that the second set of agents
did not know what, if anything, he had said to others
in earlier interviews—with these agents, he was
starting anew, from a baseline of silence. Similarly,
“the import and effect” of the right to counsel was
preserved and communicated to Khweis by
disclosing that not only did he have a right to
counsel in these interviews but his family had
already retained counsel on his behalf.

Contrast these circumstances with the “continuum”
of questioning in Seibert. Id. at 617, 124 S.Ct.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

8

United States v. Khweis, 971 F.3d 453 (2020)

2601 (plurality opinion). There, the first and second
interrogations were conducted by the same police
officer in the same room, using statements from the
first to obtain confessions in the second, separated
by a pause of only 15 to 20 minutes. “These
circumstances [so challenged] the comprehensibility
and efficacy of the
Miranda warnings ... that a
reasonable person in the suspect's shoes would not
have understood them to convey a message that she
retained a choice about continuing to talk.”
Id.
The same cannot be said here because of the curative
measures the FBI employed to distinguish the two
sets of interviews and preserve for Khweis a real
choice about whether to waive his rights and talk to
the second set of agents.

The Supreme Court has found midstream
Miranda warnings effective in circumstances
involving far lesser curative measures than were
used here. In Bobby v. Dixon, 565 U.S. 23, 132
S.Ct. 26, 181 L.Ed.2d 328 (2011) (per curiam), the
Court concluded that the defendant's prior unwarned
interrogation “did not undermine the effectiveness of
the
Miranda warnings he received” when four
hours passed between the two interrogations, during
which time the defendant traveled to a separate jail
and back, claimed to have spoken with his lawyer,
and learned that police were talking to his
accomplice and had found the victim's body. Id.
at 31–32, 132 S.Ct. 26. In the Court's view, these
circumstances “created a new and distinct
experience” distinguishing the second interrogation
from the first.
Id. at 32, 132 S.Ct. 26 (internal
quotation marks omitted); cf.
United States v.
Straker, 800 F.3d 570, 618 (D.C. Cir. 2015) (finding
Miranda warnings effective when FBI
interrogated the suspect with warnings one day after
Trinidadian police interrogated the suspect about the
same topic without warnings, given the discontinuity
of personnel and the fact that the FBI agents “did not
refer back to the prior Trinidadian interrogations in
an effort to elicit the same confessions”); United
States v. Sweets, 526 F.3d 122, 130–131 (4th Cir.
2007) (affirming admission of Mirandized
statements when some time passed between
unwarned and warned questioning, a separate officer
conducted the warned questioning in a different
location, and the questions focused on different
topics).

[11]In addition to disputing that the curative
measures previously discussed were adequate,

Khweis also contends that he “was not told that a
period of attenuation was going on,” Br. of
Appellant 46, nor was he advised that his unwarned
statements would not be admissible in court. The
FBI was not required to inform Khweis about its
plans during the ten-day break between interviews,
and Khweis identifies no authority suggesting
otherwise. We cannot see how this information
would have further distinguished the two sets of
interviews after the second team of agents arrived
and informed Khweis they were starting anew
without any insight into what he may have said in
prior interviews.

Furthermore, we disagree with the assertion that the
FBI was required to inform Khweis about the
inadmissibility of his prior unwarned statements.
Although Justice Kennedy mentioned a warning
along these lines as a potential “[a]lternative[ ]”
curative measure to “a substantial break in time and
circumstances,” nothing in his opinion suggests such
a warning is essential to cure the effect of prior
unwarned questioning. Seibert, 542 U.S. at 622,
124 S.Ct. 2601 (Kennedy, J., concurring in the
judgment). Moreover, a majority of the Court in
Elstad rejected this argument as “neither
practicable nor constitutionally necessary.” See
470 U.S. at 316, 105 S.Ct. 1285. The Court
cautioned that “[p]olice officers are ill-equipped to
pinch-hit for counsel, construing the murky and
difficult questions of when ‘custody’ begins or
whether a given unwarned statement will ultimately
be held admissible.”
Id. Indeed, statements
obtained in violation of Miranda are admissible
in certain circumstances. See, e.g., Quarles, 467
U.S. at 655–657, 104 S.Ct. 2626 (establishing a
public-safety exception to Miranda); Harris v.
New York, 401 U.S. 222, 226, 91 S.Ct. 643, 28
L.Ed.2d 1 (1971) (holding that voluntary statements
obtained in violation of Miranda are admissible
for impeachment on cross-examination); United
States v. Nichols, 438 F.3d 437, 443 (4th Cir. 2006)
(holding that voluntary statements obtained in
violation of Miranda may generally be considered
at sentencing). It would have been imprecise, or even
misleading, for the agents to assure Khweis that his
statements to Connelly could never be used against
him.

[12]Finally, Khweis emphasizes that “the only thing
he cared about” was avoiding the Kurdish and Iraqi
court systems in favor of returning to the United

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

9

United States v. Khweis, 971 F.3d 453 (2020)

States, which he had come to understand was
contingent upon providing the FBI agents with
admissions to criminal activity. Br. of Appellant 44,
47. As an initial matter, we note that Khweis has not
appealed the district court's ruling that his
postwarning statements were voluntary. Nor was
there anything improper about Connelly's truthful
statement that he could not promise extradition or
his encouragement to Khweis to be truthful. See
United States v. Shears, 762 F.2d 397, 401 (4th
Cir. 1985) (“[G]overnment agents may validly make
some representations to a defendant or may discuss
cooperation without rendering the resulting
confession involuntary.”). In any event, the context
of Khweis's capture in the Middle East, a
circumstance of Khweis's own making when he
chose to travel to Syria and Iraq to join ISIL, does
not undermine the effectiveness of the Miranda
warnings he received or his waiver of those rights.

as a crime of violence. See United States v. Dhirane,
896 F.3d 295, 303 (4th Cir. 2018) (listing the
elements of a
Section 2339B offense); cf.
United States v. Simms, 914 F.3d 229, 233–234
(4th Cir. 2019) (en banc) (holding that conspiracy to
commit Hobbs Act robbery is not a crime of
violence under
Section 924(c)(3)(A)). We
therefore vacate Khweis's conviction on Count
Three.

Because we must remand for resentencing, we do not
address Khweis's sentencing arguments, including
his contentions that the district court failed to make
adequate factual findings before imposing a 12-level
enhancement under
U.S.S.G. § 3A1.4 and a
2-level enhancement under
U.S.S.G. § 2M5.3.
See United States v. Chandia, 514 F.3d 365, 376
(4th Cir. 2008);
United States v. Hassan, 742
F.3d 104, 148–149 (4th Cir. 2014). The district
court is free to consider Khweis's arguments on
remand.

III.
Khweis separately challenges his conviction for
violating Section 924(c). We agree with Khweis
and the Government that this conviction cannot
stand.4

[13] Section 924(c)(1)(A) criminalizes possessing,
using, or carrying a firearm during and in relation to
a crime of violence. The crime of violence upon
which Khweis's
Section 924(c) conviction was
predicated was conspiracy to provide material
support to ISIL in violation of Section 2339B. In
United States v. Davis, ––– U.S. ––––, 139 S. Ct.
2319, 204 L.Ed.2d 757 (2019), the Supreme Court
struck down the definition of “crime of violence” in
Section 924(c)(3)(B)—often called the “residual
clause”—as unconstitutionally vague. Thus,
Khweis's predicate crime now must qualify as a
crime of violence under the definition in Section
924(c)(3)(A), often referred to as the “force clause.”
In other words, the predicate crime must have “as an
element the use, attempted use, or threatened use of
physical force against the person or property of
another.”
18 U.S.C. § 924(c)(3)(A). Because
conspiracy to provide material support to ISIL does
not have as an element the use, attempted use, or
threatened use of physical force, it does not qualify

IV.
For the reasons stated, we affirm the district court's
admission of Khweis's statements at trial, vacate
Khweis's conviction on Count Three for violating
18 U.S.C. § 924(c)(1)(A), and remand for
resentencing.

AFFIRMED IN PART, VACATED IN PART, AND
REMANDED

FLOYD, Circuit Judge, concurring in part and
dissenting in part:
I agree with my colleagues in the majority that
Khweis's conviction for using and carrying a firearm
during and in relation to a crime of violence under
18 U.S.C. § 924(c)(1)(A) must be vacated. But I
would not affirm the district court's ruling on
Khweis's motion to suppress the Mirandized
statements he made to the second group of FBI
agents. Those statements should have been excluded
at trial under Missouri v. Seibert, 542 U.S. 600,
124 S.Ct. 2601, 159 L.Ed.2d 643 (2004). Therefore,
I respectfully dissent.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

10

United States v. Khweis, 971 F.3d 453 (2020)

By and large, I do not take issue with the majority's
summary of the relevant factual and procedural
history. See Maj. Op. 456 – 59. Nor do I contest its
description of
Miranda,
Elstad, and
Seibert—the trilogy of Supreme Court cases that
governs our suppression inquiry in a two-step
interrogation case such as this one. See Maj. Op. 459
– 62(discussing
Miranda v. Arizona, 384 U.S.
436, 86 S.Ct. 1602, 16 L.Ed.2d 694 (1966),
Oregon v. Elstad, 470 U.S. 298, 105 S.Ct. 1285,
84 L.Ed.2d 222 (1985), and
Seibert, 542 U.S.
600, 124 S.Ct. 2601, 159 L.Ed.2d 643). But I
disagree with the majority's conclusion that, “even
assuming the FBI used a deliberate two-step
strategy,” it instituted “sufficient curative measures”
that rendered Khweis's postwarning statements
admissible. Maj. Op. 461-62. In my view, the
measures employed by the FBI here were not
“designed to ensure that a reasonable person in
[Khweis's] situation would understand the import
and effect” of a midstream Miranda warning and
waiver, Maj. Op. 461-62 (alteration in original)
(quoting Seibert, 542 U.S. at 622, 124 S.Ct. 2601
(Kennedy, J., concurring in the judgment)), and,
therefore, were not sufficiently curative. Because I
also conclude that the two-step strategy was
deliberately employed, I would hold that the district
court erred in denying Khweis's motion to suppress
and admitting the postwarning statements at trial.1

I.
At the heart of this appeal is Khweis's motion to
suppress the inculpatory statements that he made to
FBI Special Agents Victoria Martinez and Brian
Czekala while detained by Kurdish officials at a
Kurdish Counter-Terrorism Directorate (CTD)
detention center in Erbil, Iraq. Khweis made these
statements during the second stage of a two-step
interrogation process. In a two-step interrogation,
officers “question first and warn later.” Seibert,
542 U.S. at 611, 124 S.Ct. 2601 (plurality opinion).
That is, authorities interrogate custodial suspects
until they secure a confession, and only then do they
Mirandize them. See id. at 604, 124 S.Ct. 2601.
Then, after obtaining a Miranda waiver, officers
proceed to cover the same ground in a second line of
questioning. See id.

Justice Kennedy's controlling concurrence in
Seibert governs two-step interrogations. See Maj.
Op. 460–62; United States v. Mashburn, 406 F.3d
303, 309 (4th Cir. 2005). Under Justice Kennedy's
test, “postwarning statements that are related to the
substance of prewarning statements must be
excluded” if (1) the two-step interrogation strategy
was “deliberate[ly] ... employed,” and (2) “curative
measures” are not taken before the postwarning
statements are made.
Seibert, 542 U.S. at 622,
124 S.Ct. 2601 (Kennedy, J., concurring in the
judgment).

The majority's decision today rests on the presence
of sufficiently curative measures—the second prong
of Justice Kennedy's test. So, I begin there, taking
the two prongs of Justice Kennedy's test in reverse
order.

A.
As my colleagues in the majority correctly explain,
in
Seibert, Justice Kennedy stated that any
“curative measures should be designed to ensure that
a reasonable person in the suspect's situation would
understand the import and effect of the Miranda
warning and of the
Miranda waiver.”
Id.
Though Justice Kennedy did not specify precisely
what measures would satisfy this test, and thus what
measures would dispel the coercion associated with
a two-step interrogation, he did offer two examples.
First, “a substantial break in time and circumstances
between the prewarning statement and Miranda
warning” will typically suffice, because it “allows
the accused to distinguish the two contexts and
appreciate that the interrogation has taken a new
turn.”
Id. Second, “an additional warning that
explains the likely inadmissibility of the prewarning
custodial statement” may suffice too. Id.

The majority and I thus agree on the applicable legal
test for curative measures. Where we part ways,
however, is in its application to the facts of this case.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

11

United States v. Khweis, 971 F.3d 453 (2020)

Like the government, the majority seems to believe
that this case falls squarely within Justice Kennedy's
first example—a substantial break in time and
circumstances. See Maj. Op. 461 – 63. The majority
holds that the “break in time and place,” the “total
separation of personnel,” and the “thorough
explanation to Khweis about the distinction between
the Mirandized interviews and anything that had
come before” sufficed to communicate “ ‘the import
and effect of the
Miranda warning and of the
Miranda waiver.’ ” Maj. Op. 462 (quoting
Seibert, 542 U.S. at 622, 124 S.Ct. 2601
(Kennedy, J., concurring in the judgment)).
However, I am unpersuaded that these circumstances
were sufficient “to allow a reasonable person in
Khweis's position to distinguish between the
unwarned interviews with [the FBI Assistant Legal
Attaché for Iraq, Michael Connelly,] and the later
warned interviews with Martinez and Czekala,” Maj.
Op. 462, and “to ‘appreciate that the interrogation
ha[d] taken a new turn,’ ” Maj. Op. 462 (alteration in
original) (quoting Seibert, 542 U.S. at 622, 124
S.Ct. 2601 (Kennedy, J., concurring in the
judgment)).

Take, first, the “break in time and place.” The
majority makes much of both the fact that the
Mirandized interviews “began ten days after the
unwarned interviews had ended—a period longer
than any break during the series of unwarned
interviews”—and the fact that the unwarned and
warned interviews were conducted in different
rooms in the same CTD detention center where
Khweis was held. Maj. Op. 461-62. According to the
majority, these facts distinguish this case from the
interrogations in Seibert, which were separated by
a mere fifteen- to twenty-minute pause and were
conducted in the same room. But this comparison
overlooks some important contextual details about
Khweis's interrogation.

Admittedly, a ten-day attenuation period is far longer
than the twenty-minute attenuation period that fell
short in Seibert, and even the four-day attenuation
period that contributed to a finding of sufficiently
curative measures in Bobby v. Dixon, 565 U.S.
23, 132 S.Ct. 26, 181 L.Ed.2d 328 (2011) (per
curiam). But Khweis's international detention and
interrogation hardly looked like the average two-step
interrogation at your local police station. In fact, it
was hardly two steps at all: At “step one,” Khweis
was interviewed eleven times over the span of nearly

a month, on ten separate days. And as time dragged
on, so did the length of the breaks between each of
the unwarned interviews with Connelly. Near the end
of those interviews, there was even a six-day break,
which is not much shorter than the ten-day
attenuation period. It is hard to say what the
difference between a six-day break and a ten-day
break should be to the reasonable person in
international detention, if any. Regardless,
comparing a twenty-minute or four-day break
between an unwarned and warned interrogation, on
the one hand, and a ten-day break after a lengthy
series of unwarned interrogations punctuated by
breaks, on the other, is like comparing apples to
oranges.

Similar to the pattern of breaks during Khweis's
many unwarned interviews with Connelly, the fact
that Khweis was detained by a foreign government
abroad also diminished the meaningfulness of a
ten-day attenuation period. Again, we might well
wonder what the difference between a six-day break
and a ten-day break feels like to a person in
international detention. Even if Khweis was as
steadfast in his notches as Robinson Crusoe, it would
not have been unreasonable for a person in his shoes
to brush off a ten-day break in the interviews based
on a number of other factors, such as delays or
barriers to access imposed by foreign officials or
travel, particularly when a pattern of breaks had
already been established. Indeed, in this case,
Connelly himself gave Khweis reason to believe that
the interviews may not be finished. See J.A. 894
(Connelly email dated April 8, 2016, two days
before his final interview with Khweis, stating: “I
just told him I may have to go back to the states for
a few weeks, so don't panic if you don't see me every
day but I'll be back.”); see also J.A. 561 (Connelly
testimony that he gave Khweis no indication at the
final April 10 interview as to whether the U.S. was
done with him or whether the interviews would
continue). Therefore, it seems unlikely that a
reasonable person in Khweis's situation would have
experienced the ten-day attenuation period as a
unique break in time. To hold otherwise would make
golden the calendar but tarnish the test. See
Seibert, 542 U.S. at 622, 124 S.Ct. 2601
(Kennedy, J., concurring in the judgment) (framing
the curative-measures analysis from the perspective
of “a reasonable person in the suspect's situation”
(emphasis added)).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

12

United States v. Khweis, 971 F.3d 453 (2020)

Moreover, merely switching rooms within the
detention facility was insufficient to create a break in
place, thereby contributing to a “significant break ...
in circumstances.” See id. (distinguishing the facts
of Westover v. United States—one of the cases
consolidated with and decided alongside
Miranda—in referencing a “substantial break in
time and circumstances”); Miranda, 384 U.S. at
496, 86 S.Ct. 1602 (stating, as part of Westover
holding, that “[a] different case would be presented
if an accused were ... removed both in time and
place from his original surroundings” (emphasis
added)). The Supreme Court has treated an interview
conducted “in the same police station” as being in
the same place. See Miranda, 384 U.S. at 496, 86
S.Ct. 1602 (explaining, again in the Westover case,
that because the FBI's warned interrogation followed
on the heels of an unwarned interrogation by local
police and was held “in the same police station,” the
suspect was not removed “in time and place from his
original surroundings”). Why shouldn't the same
principle apply here, given that both phases of the
interrogation occurred in the same detention facility?

The majority's emphasis on different rooms perhaps
arises from a question that is difficult to answer from
the record: did the government have a different
facility to which it could have taken Khweis? Yet
even if the answer is no, that cannot render Khweis's
Mirandized interviews less coercive. Put another
way, when the government deliberately chooses to
employ a two-step interrogation process, it must
craft a measure that actually cures the coercion. It is
not enough that the government does the best it can
under the circumstances.2

Next up is the “total separation of personnel,” which
the majority also leans on to conclude that a
reasonable person would have appreciated the
difference between the two phases of the
interrogation. Although a difference in
personnel—and particularly a difference in the
identity of the interrogator—is certainly relevant to
our analysis, it is not very probative here. From
Khweis's point of view, the phase two
interrogators—Martinez and Czekala—were still
FBI agents, just like Connelly. Cf. United States
v. Straker, 800 F.3d 570, 618 (D.C. Cir. 2015) (“Not
only were the FBI agents who interrogated [the
defendants] different from the Trinidadian police
officers who initially questioned them, but the FBI
agents represented an entirely different law

enforcement authority from an entirely different
country.”); United States v. Abu Khatallah, 275
F. Supp. 3d 32, 38 (D.D.C. 2017) (case involving
step-one questioning by “U.S. intelligence agents,”
followed by step-two questioning by “FBI agents”).

And there is more. Shortly before the unwarned
interviews concluded, Connelly told Khweis that he
was returning to the U.S. for a few weeks to “check”
the information that Khweis had provided, J.A. 561,
but that Khweis should not “panic,” as Connelly
would be “back” eventually, J.A. 894. At the final
interview, Connelly did not give Khweis any
indication as to whether the U.S. was done with him
or whether the interviews would continue; instead,
Connelly apparently told Khweis that the U.S. had
yet to decide whether to charge him with a crime
because the investigation was still pending. See J.A.
550–54, 561; see also United States v. Khweis, No.
1:16-cr-143, 2017 WL 2385355, at *3 (E.D. Va.
June 1, 2017) (noting that while Connelly had
advised Khweis that the FBI could not make any
promises about a future prosecution in the U.S.,
Connelly also told him that “the charging process
was dependent on the FBI's evaluation of the
evidence” and that Khweis's “story had to be
consistently truthful in order for investigators to
determine if a crime had been committed”). Under
these circumstances, it would have hardly been
unreasonable for someone in Khweis's position to
draw a connection between the two phases of the
interrogation process based on the institutional
identity of the interrogators.

To be sure, Martinez and Czekala attempted to
downplay any relation between the two interrogation
phases by stating, among other things, that they did
not know what, if anything, Khweis had told others
in the past and that they were “starting anew.” J.A.
886; see Maj. Op. 457 – 59, 462 (highlighting the
“thorough explanation” given by Martinez and
Czekala and discussing its contribution to Khweis's
ability to “ ‘appreciate that the interrogation ha[d]
taken a new turn’ ” (alteration in original) (quoting
Seibert, 542 U.S. at 622, 124 S.Ct. 2601
(Kennedy, J., concurring in the judgment))). In my
view, however, these statements were not enough to
prevent “the unwarned and warned interrogations
[from] blend[ing] into one ‘continuum.’ ” Bobby,
565 U.S. at 31, 132 S.Ct. 26 (quoting Seibert, 542
U.S. at 617, 124 S.Ct. 2601 (plurality opinion)).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

13

United States v. Khweis, 971 F.3d 453 (2020)

Simply put, advising a person that the circumstances
have changed is not the same thing as the
circumstances actually changing. Perhaps the former
may help create a “new and distinct experience” in
some future case. See
id. at 32, 132 S.Ct. 26
(quoting Seibert, 542 U.S. at 615, 124 S.Ct. 2601
(plurality opinion)). But it did not do so here. Again,
not only was there an institutional overlap in
personnel in this case, with both sets of interrogators
hailing from the same law enforcement agency, but
Connelly had told Khweis that he would be out of
the country for a while, without giving him any
indication that the so-called “intelligence” interviews
were finished. What is more, Connelly had told
Khweis during the unwarned interviews that he
needed to be consistently truthful in order for the
FBI to determine whether a crime had been
committed, and thus for the U.S. to determine
whether to file charges. Khweis, 2017 WL 2385355,
at *3. When asked similar questions about his efforts
to join ISIL by more FBI agents, it is unsurprising
that Khweis told the same story. It also was not the
first “reset” in the interview process. See id.
(“Connelly testified that [Khweis] repeatedly
admitted to not being fully truthful at various stages
of the interviews, resulting in a ‘reset’ of the
interview process.”). This only added to the air of
continuity between the two sets of interviews.

Considering the above facts, it is hard to imagine
what it would have taken for a reasonable person to
realize that “[t]hings had changed.” Bobby, 565
U.S. at 32, 132 S.Ct. 26.3 This, in turn, made an
“additional warning”—the second and alternative
type of curative measure identified by Justice
Kennedy in Seibert—all the more important.

The “additional warning” contemplated by Justice
Kennedy is one that “explains the likely inadmissibly
of the prewarning custodial statement.” Seibert,
542 U.S. at 622, 124 S.Ct. 2601 (Kennedy, J.,
concurring in the judgment). There is no question
that such a warning was not given here. See J.A. 886
(advice-of-rights form); J.A. 708–10, 729–30,
751–53, 778 (Czekala and Martinez suppression
hearing testimony); see also Khweis, 2017 WL
2385355, at *4 & n.5.

Nevertheless, both the government and the majority
suggest that such a warning is never required
because
Elstad “squarely rejected additional

filigrees on the
Miranda warnings that would
force officers to make representations about
‘whether a given unwarned statement will ultimately
be held admissible.’ ” Resp. Br. 44 (quoting
Elstad, 470 U.S. at 316, 105 S.Ct. 1285); see
Maj. Op. 463-64. They are wrong.
Seibert was
decided after
Elstad, and Justice Kennedy's
opinion in
Seibert controls our analysis in this
case. Furthermore, although the majority expresses
concern that “[i]t would have been imprecise, or
even misleading, for the agents to assure Khweis that
his statements to Connelly could never be used
against him,” Maj. Op. 463 (emphasis added), an
agent in Martinez or Czekala's position need not
make any definitive representation about the
inadmissibility of a given statement in order to
advise a suspect about a statement's “likely
inadmissibility,”
Seibert, 542 U.S. at 622, 124
S.Ct. 2601 (Kennedy, J., concurring in the judgment)
(emphasis added). See, e.g., Abu Khatallah, 275
F. Supp. 3d at 64 n.12 (finding, albeit only in
dictum, that sufficiently curative measures were
taken when FBI agents “included an extra paragraph
to inform [the defendant] that his prior statements
would ‘probably not be used against [him] in U.S.
courts’ ” (second alteration in original)); cf. United
States v. Hasan, 747 F. Supp. 2d 642, 667 (E.D. Va.
2010) (discussing a “cleansing statement” read to the
defendants by a special agent in the Naval Criminal
Investigative Service after an unwarned interview,
which stated, in pertinent part, that “[i]t is possible
that the statements you previously made may not be
admissible against you”).

For these reasons, I would hold that the measures
taken by the FBI were not sufficiently curative
within the meaning of Seibert.

B.
Given the absence of sufficiently curative measures,
I must turn to the antecedent question of
deliberateness. Recall that under the first prong of
Justice Kennedy's two-part test, courts ask whether
the two-step interrogation strategy was deliberately
employed; if it was, then postwarning statements
“must be excluded unless curative measures are
taken” before those statements are made. See
Seibert, 542 U.S. at 622, 124 S.Ct. 2601
(Kennedy, J., concurring in the judgment).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

14

United States v. Khweis, 971 F.3d 453 (2020)

The deliberateness requirement arose as a response
to the plurality's test, which would have applied to
“both intentional and unintentional two-stage
interrogations.” See
id. at 621, 124 S.Ct. 2601;
see also id. at 615–17, 124 S.Ct. 2601 (plurality
opinion) (asking “whether
Miranda warnings
delivered midstream could be effective enough to
accomplish their objective” from the perspective of
“a reasonable person in the suspect's shoes”). Justice
Kennedy opted for a “narrower test,” applicable
“only in the infrequent case, such as we have here, in
which the two-step interrogation technique was used
in a calculated way to undermine the
Miranda
warning.” Id. at 622, 124 S.Ct. 2601 (Kennedy,
J., concurring in the judgment). Thus, Justice
Kennedy concluded that “unless the deliberate
two-step strategy was employed,” the admissibility
of postwarning statements would “continue to be
governed by the principles of
Elstad.”
Id.
(emphasis added). In this sense, Justice Kennedy
was merely reiterating what the Supreme Court held
in
Elstad, which is that “a simple failure to
administer [ Miranda] warnings” does not “so
taint[ ] the investigatory process that a subsequent
voluntary and informed waiver is ineffective for
some indeterminate period.’ ”
Id. at 620, 124
S.Ct. 2601 (quoting Elstad, 470 U.S. at 309, 105
S.Ct. 1285); see also
id. (observing that
“ Elstad was correct in its reasoning and its result”
because “[a]n officer may not realize that a suspect
is in custody and warnings are required,” “may not
plan to question the suspect,” or “may be waiting for
a more appropriate time”).

In this case, the government concedes that Khweis
was subjected to a two-step interrogation. See
generally Khweis, 2017 WL 2385355, at *13. But it
contends that this strategy was not “used in a
calculated way to undermine the
Miranda
warning” and, therefore, was not deliberately
employed within the meaning of
Seibert. Resp.
Br. 38 (quoting
Seibert, 542 U.S. at 622, 124
S.Ct. 2601 (Kennedy, J., concurring in the
judgment)). As the government tells it, the two
phases of Khweis's interrogation merely served as a
means to demarcate the FBI's intelligence-gathering
efforts from its subsequent, Mirandized
criminal-investigation efforts.

The district court agreed. Based on the evidence
presented at the suppression hearing, it found no
intentional scheme to circumvent
Miranda. See
Khweis, 2017 WL 2385355, at *13–15. As the
majority notes, the district court cited three reasons
in support of this finding. First, the district court
explained that Connelly's decision not to Mirandize
Khweis before the first interview was “driven by
intelligence[-]gathering needs.” Id. at *14. Second,
it stated that Connelly had “good reason to continue
interviewing [Khweis] even after obtaining
substantial intelligence.” Id. at *14; see id. at 15.
Third, it reasoned that Connelly's “later
braggadocio” about the success of the Mirandized
interviews in emails to colleagues who were not
members of the clean team did not undermine
Connelly's initial justification for the unwarned
interviews or affect the Mirandized interviews. Id. at
*14.

At bottom, the district court's rationale was premised
on its view that intelligence-gathering is a legitimate
reason to interrogate a terrorism suspect. Because
the Supreme Court has never had occasion to apply
Seibert to a two-step interrogation in the
counterterrorism context, it has not wrestled with the
potential significance of an intelligence-based
motive for the first (unwarned) phase of a two-step
interrogation. Doing so presents unique challenges to
assessing the deliberateness of a two-step strategy.
See generally Katherine Kaiser Moy, Note,
Tailoring Seibert’s Intent Inquiry to Two-Step
Counterterrorism Interrogations, 71 Stan. L. Rev.
215 (2019).

In a pure criminal-investigation context, the
deliberateness inquiry is straightforward: Was the
two-step technique purposefully used? See
Seibert, 542 U.S. at 619–22, 124 S.Ct. 2601
(Kennedy, J., concurring in the judgment). Or, put
differently, did the agents “intentional[ly]” “fail[ ] to
convey Miranda warnings”?
Mashburn, 406
F.3d at 309; see also Wallace v. Branker, 354 F.
App'x 807, 823 (4th Cir. 2009) (“In Seibert the
Court addressed the consequences of a deliberate
rather than inadvertent delay of
Miranda
warnings.”). If the answer is yes, then the
deliberateness prong is easily satisfied.4

In the counterterrorism context, however, there is at
least a conceivable alternative reason for
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

15

United States v. Khweis, 971 F.3d 453 (2020)

intentionally refusing to Mirandize a suspect that is
untethered to the criminal-justice process: national
security and intelligence gathering. Thus, assuming
we defer to the district court's credibility
determination about Connelly's later statements not
reflecting an ulterior motive for the un-Mirandized
interviews, the question becomes, did Connelly's
intelligence-gathering motive render the two-step
process non-deliberate under Justice Kennedy's test?
Or is the fact that Connelly chose not to Mirandize
Khweis because he was concerned that Khweis
would invoke his right to remain silent still
dispositive, given the accidental-versus-intentional
paradigm suggested by Seibert?

Fortunately, we need not confront these difficult
questions head-on in order to resolve this case. That
is because Justice Kennedy's controlling opinion in
Seibert leaves open the possibility that the
systematic use of a two-step interrogation strategy
might be deliberate, and here, there is strong
evidence of a systematic two-step strategy that was
driven, in part, by a law enforcement purpose.
Therefore, by lasering in on Connelly's asserted
intent as the step-one interrogator, the district court
took too cramped a view of what constitutes a
“deliberate” effort to circumvent Miranda via a
two-step interrogation.

The two-step interrogation protocol that the Supreme
Court addressed in Seibert was carried out by a
single police officer. See 542 U.S. at 604–06, 124
S.Ct. 2601 (plurality opinion). Thus, Justice
Kennedy's deliberateness test is clearly satisfied
when, like in Seibert, an officer intends to exploit
the two-step interrogation process as an end run
around
Miranda. But a two-step interrogation
tactic that is deliberately employed at the policy level
implicates the same concerns that troubled Justice
Kennedy in
Seibert. Even crediting the district
court's finding that Connelly was motivated solely by
“the unique intelligence opportunities” presented by
Khweis's arrest “on suspicion of terrorism, in an
active war zone, near ISIS-controlled territory,”
Khweis, 2017 WL 2385355, at *14, such
intelligence-gathering interests will often intersect
with the FBI's law-enforcement interests. This case
is a perfect example: In the unwarned phase of the
interviews, Connelly elicited information about
Khweis's efforts to join ISIL, other members he
encountered in the organization, and ISIL's
operations in the region. This may be valuable

intelligence for the FBI, but the same information
was likely to inculpate Khweis as a suspect and,
indeed, was critical to the government's theory in
Khweis's case. See generally J.A. 1058–75
(government opening argument); J.A. 1487–89,
1492–1531, 1540–42, 1553–55, 1579 (Czekala trial
testimony); J.A. 1640–47, 1661–67, 1675–77,
1684–85, 1691–1705, 1726–28, 1732–33 (Martinez
trial testimony); J.A. 2178–2204 (government
closing argument).

The upshot is that even if an FBI agent, like
Connelly, has the purest of intentions in that he does
not seek to assist the “investigative” team in
obtaining a postwarning confession—and even if
investigative agents like Martinez and Czekala are
likewise innocent of any ulterior motive to exploit
t h e e a r l i e r , u n wa r n e d “ i n t e l l i ge n c e ”
questioning—the fact remains that the investigative
team is likely to benefit from whatever the
intelligence team unearths. If we were to ignore this
reality by homing in on the intentions of the
individual officers on the ground who are involved
in different stages of the two-step interrogation
process, we would discount the significance of a
higher-level decision to implement this strategy in
the first place. And if we were to discount the
significance of a higher-level decision to adhere to a
two-step interrogation model, we would risk
incentivizing the same end run around Miranda
that Justice Kennedy sought to prevent by outlawing
a “deliberate two-step strategy.” See Seibert, 542
U.S. at 621–22, 124 S.Ct. 2601 (Kennedy, J.,
concurring in the judgment).

Because the district court found Connelly's
motivations to be “highly probative” on the question
of subjective intent, see Khweis, 2017 WL 2385355,
at *14, it did not address the evidence in the record
that demonstrated a systematic use of the two-step
strategy. There was quite a lot of it.

For starters, as even the district court acknowledged
in its opinion, Connelly testified that he only made
the decision to intentionally withhold
Miranda
warnings from Khweis after consulting with his
supervisors. Id. at *2; see also J.A. 460, 548–49
(testimony from Connelly explaining that when
deciding whether “to deliberately withhold
Miranda,” he would call his boss in Baghdad, and
they would then call FBI headquarters in

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

16

United States v. Khweis, 971 F.3d 453 (2020)

Washington and the FBI's Office of General
Counsel). This testimony—along with Connelly's
testimony about his familiarity with the difference
between an “intelligence” (or “taint”) team that
conducts un-Mirandized interviews, on the one hand,
and a “law enforcement” (or “clean”) team that
conducts Mirandized interviews after an “attenuation
period” that “the U.S. Department of Justice ... likes
[the FBI] to utilize” in cases with prosecution
potential, on the other—strongly suggests the
existence of certain department-wide procedures.
See J.A. 461–64, 497–503, 522–30, 547–50,
570–72.5

Agent Martinez's testimony at the suppression
hearing only corroborated the existence of such
procedures. Martinez testified that the “modified”
advice-of-rights form that she gave Khweis was
provided to her by the FBI (and likely DOJ), J.A.
766, and was prepared by attorneys, J.A. 767, 778.
Notably, she also testified that there is FBI training
on “walled-off interviews and intel interviews.” J.A.
776–77.

Finally, although the district court disregarded
Connelly's repeated references to a “clean team” in
emails sent to his colleagues in the FBI, see Khweis,
2017 WL 2385355, at *14 (stressing that these
emails were sent to “other members of the FBI
intelligence team—not the Mirandizing team”),
Connelly's mention of Khweis being “lined up
perfectly for the clean team,” J.A. 894, for example,
helps establish that there was, in fact, a two-stage
interrogation policy. See generally Maj. Op. 457-58
(summarizing Connelly's “clean team” emails); J.A.
895, 921–22 (further references to the “taint” and
“clean” team, as well as an “attenuation period,” in
Connelly's emails); J.A. 901 (email from a
Department of Defense employee during the
unwarned interview period describing the “way
ahead” as involving “one more ... session followed
by clean team arrival from [Washington Field
Office] and prosecution determination from FBI”).
Indeed, even the government's opposition to
Khweis's motion to suppress below hints at the
existence of a policy. See J.A. 142 (characterizing
the circumstances warranting a two-step
interrogation in Khweis's case as “unique,” but going
on to explain, in more general terms, that the
“process was designed to enable the [U.S.]
government both to protect its national security
interests and to subsequently pursue a criminal

investigation of the defendant”).

Accordingly, I would hold that the FBI deliberately
employed a two-step interrogation process in this
case. That is not to say that the FBI was wrong to
employ this process, but just to say that, having
chosen to do so, it needed to cure the inherent
coercion. Because I do not believe that the FBI
cured the coercion that a reasonable person would
feel under the circumstances, see supra Part I.A, I
would hold that Khweis's Mirandized statements to
Agent Martinez and Agent Czekala should have
been suppressed.

II.
For the foregoing reasons, it was error for the district
court to admit the postwarning statements that
Khweis made to Agent Martinez and Agent Czekala
during his custodial interviews at a Kurdish CTD
detention center in Iraq. Because that error was not
harmless, see supra note 1, I would vacate Khweis's
convictions on all three counts and remand for a
retrial on the two counts that survive our ruling on
Khweis's firearms conviction, namely, conspiracy
and the provision of material support to a foreign
terrorist organization.

All Citations
971 F.3d 453

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

17

United States v. Khweis, 971 F.3d 453 (2020)

Footnotes
1

At all relevant times, ISIL was designated by the United States Secretary of State as a foreign terrorist organization. ISIL
is also known as the Islamic State of Iraq and Syria (ISIS), the Islamic State (IS), ad-Dawlah al-Islmiyah fl-‘Irq
wash-Shm (DAESH), and al-Qaeda in Iraq (AQI). Crosby v. Twitter, Inc., 921 F.3d 617, 620 n.1 (6th Cir. 2019). Shortly
before Khweis departed for the Middle East, ISIL claimed responsibility for the November 13, 2015 attacks in Paris,
France, during which ISIL operatives killed nearly 100 civilians.

2

Khweis's parents retained counsel for him on April 7, 2016. Because this attorney was not listed on Khweis's Privacy
Act waiver, the State Department initially was unable to provide the attorney with information about Khweis. Khweis
ultimately added the attorney to his Privacy Act waiver on April 23, 2016.

3

The district court also rejected Khweis's presentment challenge, denied his motion to suppress the statements he made
to the FBI agents on the June 8 flight to the United States, and held that his confessions were voluntary and not the
product of government coercion. Khweis does not contest these rulings on appeal.

4

After Khweis filed this appeal, the Government moved for a limited remand on the ground that his Section 924(c)
conviction must be vacated in light of Davis. In view of our ruling today, we deny that motion as moot.

1

Although the government asserts that it was harmless error to admit these statements, I am satisfied, based on my review
of the trial record, that the error was not harmless. Taken together, Khweis's inculpatory postwarning statements resemble
a full-blown confession, the erroneous admission of which is rarely harmless. See
Arizona v. Fulminante, 499 U.S.
279, 296, 111 S.Ct. 1246, 113 L.Ed.2d 302 (1991). And while the government points to several pieces of evidence that
the jury may well have relied upon to convict Khweis of providing, attempting to provide, or conspiring to provide
material support or resources to ISIL, in violation of 18 U.S.C. § 2339B, there is at least a “reasonable possibility”
that the inadmissible statements “might have contributed to [Khweis's] conviction,” United States v. Giddins, 858 F.3d
870, 885 (4th Cir. 2017) (quoting Thompson v. Leeke, 756 F.2d 314, 316 (4th Cir. 1985)). Thus, I would grant
Khweis's request for a retrial on the remaining counts that are not subject to our vacatur ruling.

2

None of this is to suggest that the U.S. government was not in a difficult situation here. Connelly's testimony at the
suppression hearing makes clear that there were many things outside of the FBI's control. But determining whether a
measure is sufficiently curative requires us to view the situation from the perspective of the reasonable suspect. For that
reason, the government's efforts to make the best of a difficult situation, however admirable, are irrelevant to our inquiry
unless they help the suspect appreciate that things have changed. Though this may seem harsh, the government is not
left without options: Even assuming, purely for the sake of argument, that there were no actions that the government
could have taken to create a substantial break in time and circumstances here, it still could have crafted an appropriate
“additional warning,” Seibert, 542 U.S. at 622, 124 S.Ct. 2601 (Kennedy, J., concurring in the judgment), as I discuss
below. In other words, the government's hands are never really tied if it is willing to at least provide a comprehensive
warning before obtaining a Miranda waiver at step two of the interrogation.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

18

United States v. Khweis, 971 F.3d 453 (2020)

3

The majority relies on Bobby as an example of “far lesser curative measures” creating a new and distinct experience
from the suspect's perspective. Maj. Op. 462 – 63. In Bobby, the majority asserts, the Supreme Court concluded that
the defendant's prior unwarned interrogation “did not undermine the effectiveness of the Miranda warnings he [later]
received,” 565 U.S. at 32, 132 S.Ct. 26, when “four hours passed between the two interrogations, during which time
the defendant traveled to a separate jail and back, claimed to have spoken with his lawyer, and learned that police were
talking to his accomplice and had found the victim's body,” Maj. Op. 463 (citing Bobby, 565 U.S. at 31–32, 132 S.Ct.
26). However, for the same reasons that Seibert is a poor yardstick for measuring the adequacy of the measures taken
in this case given the uniqueness of the situation Khweis found himself in, I find it difficult to characterize the measures
taken in Bobby as “far less[ ] curative.” In any event, Bobby is a poor comparator for a different reason. Before
commenting on the “significant break in time and dramatic change in circumstances” in Bobby, the Supreme Court
distinguished Seibert on another ground, stating that “no two-step interrogation technique of the type that concerned
the Court in Seibert undermined the Miranda warnings [that the defendant] received.” Bobby, 565 U.S. at 31,
132 S.Ct. 26. The Court explained that unlike in Seibert—where “the suspect's first, unwarned interrogation left little,
if anything, of incriminating potential left unsaid, making it unnatural not to repeat at the second stage what had been
said before”—the suspect in Bobby had “steadfastly” maintained his innocence in his first, unwarned interrogation,
claiming “he had nothing whatsoever to do with [the victim's] disappearance.” Id. (internal alteration and quotation
marks omitted). Thus, “there was no earlier confession to repeat.” Id. The break in time and circumstances, then, was
enough when the cat was not out of the bag. That is simply not the case here: Like in Seibert, Khweis confessed, and
then re-confessed.

4

Of course, a statement obtained in deliberate violation of Miranda may be admissible, regardless of curative measures,
if an exception to the Miranda rule applies, such as the public-safety exception announced in New York v. Quarles,
467 U.S. 649, 104 S.Ct. 2626, 81 L.Ed.2d 550 (1984). But the government does not rely on the Quarles exception
here, see Gov't Br. 22 n.2, and rightfully so: By its own terms, Quarles only applies to questioning necessary to defuse
a “volatile situation.” 467 U.S. at 657–58, 104 S.Ct. 2626; see also id. at 659 n.8, 104 S.Ct. 2626 (requiring an
“immediate” threat to the police or public).

5

See also J.A. 522–24 (testifying that the April 7 email about Khweis being “very easy to deal with from a clean team
perspective” was sent to Connelly's “management team,” which would periodically ask for his assessment regarding
where Khweis was “at” in order to determine whether a clean team or attenuation period should be used); J.A. 549–50
(testifying that when he began the unwarned interviews with Khweis, he knew that it was possible that a clean team might
come in later to question Khweis); J.A. 564–66 (testifying, in response to a question about the intelligence purpose of
his April 8 observation that Khweis was “lined up perfectly for the clean team,” that “[i]t's a discussion we have. Like
when I discuss whether he's lined up perfectly, there may be, you know, FBI personnel deciding whether they want to
deploy a clean team .... I mean, the Bureau has to start figuring out what they're going to do next.”); J.A. 571–73
(testifying about a March 19 email that he sent to Department of Defense employees in which he stated that there were
“certain requirements I'm being held to in reporting to the Department of Justice regarding every interview session now
that this case is going to be prosecuted,” and clarifying that when the FBI conducts “intel” interviews overseas that have
“a potential to be prosecuted,” they must stay in the FBI/DOJ lane, rather than the military lane, given the “potential to
end up in a courtroom”).

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

19

